         Office of Inspector General




February 8, 2006

GLORIA E. TYSON
MANAGER, DETROIT DISTRICT

SUBJECT: Audit Report – City Letter Carrier Operations – Detroit District
         (Report Number DR-AR-06-002)

This report presents the results of our self-initiated audit of City Letter Carrier
Operations in the Detroit District (Project Number 05YG007DR003). This is the fourth in
a series of six reports on city letter carrier operations issued under the Value
Proposition Agreement between the vice president, Delivery and Retail, and the U.S.
Postal Service Office of Inspector General’s (OIG) Delivery and Retail directorate. Our
overall objective was to assess the management of city letter carrier operations.

Opportunities existed to improve the management of city letter carrier operations in the
district. Specifically:

   •   Delivery facility supervisors and managers could more effectively match
       workhours with workload when approving Postal Service Forms 3996,
       Carrier - Auxiliary Control. We projected the sample results for a total of
       59,208 unjustified hours representing over $2.3 million for the 5-month period
       January 1, 2005, through May 31, 2005. However, we agreed with headquarters
       management to unrecoverable costs of 50 percent of the total variance in the
       Web Enabled Enterprise Information System as a reasonable target of
       opportunity. These unrecoverable costs amounted to $723,586, and will be
       reported as such in our Semiannual Report to Congress.

   •   Delivery facility supervisors and managers used the Workload Status Report in a
       timely manner to manage daily operations. The district needs to make some
       improvement in timely use of two other Delivery Operations Information System
       (DOIS) Reports.

   •   Delivery facility supervisors and managers needed to more effectively use the
       Managed Service Points (MSP) base information to monitor carrier performance.

   •   Delivery facility supervisors and managers did not consistently track and
       document letter carriers’ unauthorized overtime occurrences and take corrective
       action.
We recommended the manager, Detroit District, direct station managers and
supervisors to enforce the policy for carriers to complete required forms when volume or
workload indicates that additional time on the route is needed. We also recommended
requiring supervisors and managers to update MSP base information when routes
change and to properly document unauthorized overtime and take corrective action.

Management agreed with our findings and recommendations and has initiatives
completed and planned addressing the findings and recommendations in this report.
Management’s comments and our evaluation of these comments are included in this
report.

The OIG considers recommendations 1 and 2 significant, and therefore requires OIG
concurrence before closure. The OIG considers the response provided by management
detailing corrective actions taken and planned to be sufficient to close the
recommendations.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Rita Oliver,
director, Delivery and Retail, or me at (703) 248-2300.


 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: William P. Galligan
    Ellis A. Burgoyne
    James Kiser
    JoAnn Feindt
    Steven R. Phelps
City Letter Carrier Operations –                                      DR-AR-06-002
 Detroit District


                                   TABLE OF CONTENTS

 Executive Summary                                                              i

 Part I

 Introduction                                                                  1

     Background                                                                1
     Objectives, Scope, and Methodology                                        4
     Prior Audit Coverage                                                      5

 Part II

 Audit Results                                                                 6

 Workhours to Workload                                                         6
    Unjustified Time                                                           7
    PS Form 3996, Carrier – Auxiliary Control                                  8
 Recommendations                                                               8
 Management’s Comments                                                         9
 Evaluation of Management’s Comments                                           9

 Supervisors’ Use of Delivery Operations Information System Reports           10
 Recommendations                                                              11
 Management’s Comments                                                        11
 Evaluation of Management’s Comments                                          11

 Managed Service Points Base Information                                      12
 Recommendation                                                               12
 Management’s Comments                                                        12
 Evaluation of Management’s Comments                                          13

 Unauthorized Time                                                            14
 Recommendation                                                               15
 Management’s Comments                                                        15
 Evaluation of Management’s Comments                                          15

 Appendix A. Summary of 120 “3996 Audits”                                     16

 Appendix B. Projection of “3996 Audit” Results Over 5-Month Period           20

 Appendix C. Technical Documentation                                          21
City Letter Carrier Operations –                      DR-AR-06-002
 Detroit District


 Appendix D. OIG Calculation of Unrecoverable Costs           22

 Appendix E. Prior Audit Coverage                             23

 Appendix F. Management’s Comments                            25
City Letter Carrier Operations –                                                                             DR-AR-06-002
 Detroit District


                                        EXECUTIVE SUMMARY
    Introduction                     This report presents the results of our self-initiated audit of
                                     city letter carrier operations in the Detroit District. The
                                     overall objective was to assess the management of city
                                     letter carrier operations.

    Results in Brief                 Opportunities existed to improve the management of city
                                     letter carrier operations in the Detroit District. Specifically:

                                         •    Delivery facility supervisors and managers did not
                                              adequately match workhours with workload. This
                                              occurred primarily because carriers did not always
                                              submit a Postal Service (PS) Form 3996, Carrier –
                                              Auxiliary Control, to document their requests for
                                              additional time. As a result, we projected that the
                                              six delivery facilities had 14,210 unjustified hours not
                                              supported by volume or workload from January 1,
                                              2005, through May 31, 2005. We projected the
                                              sample results to all 25 similarly sized delivery
                                              facilities in the district, for a total of 59,208 unjustified
                                              hours. According to an agreement with headquarters
                                              management, we informed the Detroit District that
                                              50 percent1 of the total variance in the Web Enabled
                                              Enterprise Information System, or $723,586,2 will be
                                              used as the unrecoverable cost and a reasonable
                                              target of opportunity. (See Appendix D.)

                                         •    Supervisors and managers used the Workload Status
                                              Report in a timely manner to manage daily
                                              operations. Some improvement is needed in timely
                                              use of the Route/Carrier Daily Performance and
                                              Managed Service Points (MSP) Overview Reports.

                                         •    Supervisors and managers need to use MSP base
                                              information to monitor carrier performance effectively.
                                              This occurred because supervisors had not updated
                                              route pivot plans to reflect new starting times.

                                         •    Supervisors and managers did not always properly
                                              track and document letter carriers’ unauthorized
                                              overtime and take corrective action to manage
1
 Postal Service officials believed a reduction of 50 percent of the variance was a reasonable target.
2
 Fifty percent of the total variance for January 1, 2005, through May 31, 2005, for the 25 facilities with
30 to 55 routes.



                                                            i
City Letter Carrier Operations –                                                       DR-AR-06-002
 Detroit District


                                         overtime issues. Supervisors stated they talked
                                         informally with carriers but did not often use a log.

 Summary of                        We recommended the manager, Detroit District, direct
 Recommendations                   station managers and supervisors to enforce the policy for
                                   carriers to complete required forms when volume or
                                   workload indicates that additional time on the route is
                                   needed. We also recommended requiring supervisors and
                                   managers to update MSP base information when routes
                                   change and to properly document unauthorized overtime
                                   and take corrective action.

 Summary of                        Management agreed with our findings and
 Management’s                      recommendations and has taken or planned corrective
 Comments                          actions. District Operations Program Support will conduct at
                                   least one Top Audit and/or Unit Review on every Delivery
                                   Operations Information System (DOIS) office in the Detroit
                                   District. Management has established and initiated a
                                   schedule for these district audits and reviews, and will cover
                                   issues identified in this audit. Management’s comments, in
                                   their entirety, are included in Appendix E of this report.

 Overall Evaluation of             Management’s actions taken or planned are responsive to
 Management’s                      our findings and recommendations and should correct the
 Comments                          issues identified in our report.




                                                    ii
City Letter Carrier Operations –                                                                     DR-AR-06-002
 Detroit District


                                       INTRODUCTION
    Background                     Each day the Postal Service receives and delivers over
                                   680 million pieces of mail. The mail is delivered to
                                   143 million addresses across a network of 38,000 post
                                   offices and retail outlets. The Delivery Operations
                                   Information System (DOIS), deployed in fiscal year
                                   (FY) 2002, provides operational data to supervisors and
                                   managers at delivery facilities to help them manage daily
                                   carrier operations and reduce costs. This data includes mail
                                   volume, mail arrival and dispatch times, and projected office
                                   and street hours for routes.

                                   Delivery operations constitute 46 percent of the workhours
                                   in the FY 2006 field operating budget; these workhours are
                                   mainly attributable to office and street workhours. (See
                                   Figure 1.) Salary and benefits for rural and city carriers
                                   totaled approximately $22 billion. Also, in the FY 2006 field
                                   budget, the Postal Service established a goal to reduce
                                   delivery workhours by 6.9 million hours. City delivery hours
                                   are budgeted at 72 percent of total delivery workhours.3

                                    Figure 1. FY 2006 Field Budget Workhours


                                                                      46%




                                                                                         8%




                                                          22%
                                                                                     16%

                                                                       3% 5%

                                                Support, Finance, Human Resources and Marketing
                                                Mail Processing
                                                Delivery
                                                Vehicle Service and Plant Maintenance
                                                Customer Service
                                                Field Administration

                                   Source – Postal Service FY 2006 Field Budget


3
 Management budgeted total delivery workhours for FY 2006 at 636,199,952. Of the total delivery
workhours, management charged 456,071,701 (or 72 percent) to the city delivery function code (2B).

                                                    1
City Letter Carrier Operations –                                                                          DR-AR-06-002
 Detroit District



                                     The Great Lakes Area consists of 839 DOIS delivery
                                     facilities4 in nine districts. The Great Lakes Area’s FY 2006
                                     budget performance goal is to reduce city delivery
                                     workhours by 682,858, representing a cost savings of
                                     $25,284,442.5 The Detroit District ranks seventh in the
                                     Great Lakes Area, with 67 DOIS delivery facilities in
                                     2,177 city delivery routes.

                                     Each delivery facility’s mail volume, mail arrival and
                                     dispatch times, and office and street hours vary and are
                                     managed by the facility supervisor or manager. In addition,
                                     routes in a city delivery facility have an established office
                                     and street time (usually 8 hours) based on the last route
                                     inspection. One aspect of a delivery facility’s daily
                                     operations is city letter carriers preparing and submitting
                                     Postal Service (PS) Form 3996, Carrier – Auxiliary Control,
                                     to request overtime or assistance on their routes. The
                                     supervisor reviews each request and approves the
                                     additional time, decreases the time, assigns assistance,
                                     curtails mail, or denies the carrier’s request. The supervisor
                                     bases this decision on the daily workload or mail volume
                                     received in the delivery facility.

                                     Unauthorized time is time worked that is not authorized by
                                     the supervisor. For example, when a carrier requests
                                     1 hour of additional time, but uses 1 hour and 30 minutes,
                                     the extra 30 minutes is unauthorized time. Unjustified time
                                     occurs when the workload or volume does not support the
                                     hours used. Using the above example, if the carrier worked
                                     1 hour and 30 minutes of extra time, but the workload
                                     supported only 30 minutes, the extra 1 hour would be
                                     classified as unjustified time. A carrier can have both
                                     unauthorized and unjustified time simultaneously.

                                     To determine the amount of unauthorized and unjustified
                                     overtime on routes, a “3996 audit” of a delivery facility’s
                                     activities can be performed. Using the DOIS Workload




4
  A DOIS delivery facility is a building with one or more delivery units with the capability to access DOIS to
manage daily delivery operations. A delivery unit is a group of routes that usually belong to a ZIP Code.
However, some ZIP Codes with a few routes can be combined to form one delivery unit, and a ZIP Code
with a large number of routes may be split into more than one delivery unit.
5
  Memorandum from vice president, controller, to vice presidents, Area Operations, dated June 24, 2005,
FY 2006 Area Targets.

                                                       2
City Letter Carrier Operations –                                                                     DR-AR-06-002
 Detroit District



                                   Status Report,6 PS Form 3996,7 and the Route/Carrier Daily
                                   Performance Report,8 several factors are reviewed:

                                            •    The amount of time the carrier requests for the
                                                 route.

                                            •    The amount of time the supervisor approves for
                                                 the route.

                                            •    The total time the carrier uses on the route.

                                            •    The justified and unjustified time.

                                   In addition to reviewing PS Forms 3996, an analysis of the
                                   completed PS Forms 1017-B, Unauthorized Overtime
                                   Record, can determine whether supervisors are correcting
                                   carrier performance issues.

                                   Managed Service Points (MSP) is a computerized tool
                                   designed to monitor consistency of delivery time and
                                   enhance street management. Letter carriers use mobile
                                   data collection devices (DCD) to scan barcodes placed at
                                   service points reflecting key elements of the employee
                                   workday. Seven basic scan points are required:

                                            1.   Hot Case9
                                            2.   Depart to Route
                                            3.   First Delivery
                                            4.   Last Delivery Before Lunch
                                            5.   First Delivery After Lunch
                                            6.   Last Delivery
                                            7.   Return to Office

                                   At the conclusion of each workday, the carrier downloads
                                   the MSP data from the DCD into DOIS. Management
                                   compares this data to the route MSP base information that
                                   employees store in DOIS to generate the reports
                                   supervisors use to evaluate the carrier’s performance.
6
  Workload Status Reports give management data such as volume, parcel, and delivery point sequenced
mail for them to use in making effective decisions in matching workhours to workload.
7
  Carriers complete PS Forms 3996 to request overtime or auxiliary assistance on their routes for days when
they estimate the route will exceed 8 hours because of workload and volume.
8
  The Route/Carrier Daily Performance Report helps supervisors evaluate the performances of all routes
within a delivery unit for a single day.
9
  A hot case is a location within the delivery facility where employees resort mail missent from the
processing plant and give it to the assigned carrier.


                                                    3
City Letter Carrier Operations –                                                    DR-AR-06-002
 Detroit District




 Objectives, Scope,                Our overall objective was to assess the management of city
 and Methodology                   letter carrier operations. Specifically, we determined
                                   whether delivery supervisors and managers adequately
                                   matched workhours with workload, used DOIS Reports in a
                                   timely manner to manage operations, and effectively used
                                   MSP base information to monitor carrier performance.

                                   We also assessed whether delivery facility supervisors and
                                   managers properly tracked unauthorized time by
                                   documenting letter carriers’ unauthorized time and taking
                                   corrective action. Our audit scope included reviewing city
                                   letter carrier operations for the 5-month period from
                                   January 1, 2005, through May 31, 2005.

                                   To accomplish our objectives, we randomly selected
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxx. To determine whether
                                   delivery facility supervisors and managers adequately
                                   matched workhours with workload, we randomly selected
                                   20 days for each delivery facility and conducted
                                   “3996 audits” for each day to quantify the amount of
                                   unjustified time. We also observed the delivery facility
                                   supervisors’ and station managers’ morning activities of
                                   measuring and recording mail volume, reviewing DOIS
                                   Workload Status Reports, and approving overtime.

                                   To determine whether delivery facility supervisors and
                                   managers used DOIS reports effectively and in a timely
                                   manner, we analyzed the time each day that supervisors
                                   first generated the Workload Status, Route/Carrier Daily
                                   Performance, and MSP Overview Reports. We also
                                   reviewed base MSP information for all routes at the
                                   xxxxxxxxxxxxx and reviewed the use of the log for PS
                                   Forms 1017-B.

                                   We conducted this audit from July 2005 through
                                   February 2006 in accordance with generally accepted
                                   government auditing standards and included such tests of
                                   internal controls as we considered necessary under the
                                   circumstances. We relied on data from the Web Enabled
                                   Enterprise Information System (WebEIS) and DOIS. We did
                                   not audit these systems, but performed a limited review of
                                   data integrity to support our reliance on data. We discussed



                                                4
City Letter Carrier Operations –                                                     DR-AR-06-002
 Detroit District



                                   our observations and conclusions with management officials
                                   and included their comments where appropriate.

 Prior Audit Coverage              The U.S. Postal Service Office of Inspector General (OIG)
                                   has issued four audit reports related to our objectives. The
                                   four reports, which are summarized in Appendix F, all
                                   identified opportunities to improve the management of city
                                   letter carrier operations at the districts audited.




                                                5
City Letter Carrier Operations –                                                          DR-AR-06-002
 Detroit District


                                       AUDIT RESULTS
 City Letter Carrier               Opportunities existed to improve the management of city
 Operations                        letter carrier operations in the Detroit District. Specifically:

                                      •   Delivery facility supervisors and managers did not
                                          adequately match workhours with workload. As a
                                          result, we projected that the xxxxxxxxxxxx had
                                          14,210 unjustified hours not supported by volume or
                                          workload from January 1, 2005, through May 31,
                                          2005. We projected the sample results to all
                                          xxxxxxxxxxxxxxxxxxxxxxxxxxxx in the district for a
                                          total of 59,208 unjustified hours. Headquarters
                                          management and the OIG agreed to unrecoverable
                                          costs of 50 percent of the total variance in WebEIS,
                                          which amounts to $723,586. (See Appendix D.)

                                      •   Supervisors and managers used the Workload Status
                                          Report in a timely manner to manage daily
                                          operations. Some improvement is needed in timely
                                          use of the DOIS Route/Carrier Daily Performance and
                                          MSP Overview Reports.

                                      •   Supervisors and managers need to more effectively
                                          use MSP base information to monitor carriers’
                                          performance.

                                      •   Supervisors and managers did not always properly
                                          document letter carriers’ unauthorized overtime and
                                          take corrective action.

 Workhours to                      Delivery facility supervisors and managers did not effectively
 Workload                          match workhours with workload. We projected the sample
                                   results in the 25 similarly sized delivery facilities in the
                                   district. We projected a total of 59,208 unjustified hours with
                                   unrecoverable costs of $2,304,964, over the 5-month period
                                   January 1, 2005, through May 31, 2005. The unjustified
                                   hours occurred primarily because carriers often did not
                                   submit PS Forms 3996 to document their requests for
                                   additional time. In addition, carriers did not always properly
                                   complete PS Forms 3996, and supervisors did not always
                                   approve carriers’ requests.




                                                  6
City Letter Carrier Operations –                                                                  DR-AR-06-002
 Detroit District



                                   Postal Service policy states that the carrier is responsible for
                                   completing PS Form 3996 if overtime or auxiliary assistance
                                   is authorized for the office or the street.10

                                   Postal Service policy states that effective day-to-day
                                   management of a delivery facility requires evaluating the
                                   facility’s daily mail volume.11 The Postal Service uses
                                   volume data to assess the workhours needed for any day.

 Unjustified Time                  We analyzed information from the delivery facilities12 and
                                   conducted “3996 audits” for 12013 days at xxxxxxxxxxxx
                                   xxxxxxxxxxxxxx from January 1, 2005, through May 31,
                                   2005. The “3996 audits” determined that 2,273 unjustified
                                   hours (97 percent) of the total 2,338 hours were expended
                                   on routes with time used over 8 hours. We projected the
                                   sample results to xxxxxxxxxxxxxxxxxxxxxxxxx facilities in
                                   the district for a total of 59,207.90 unjustified hours at a
                                   projected cost of over $2.3 million.14

                                   The “3996 audit” process assesses individual route time
                                   used over 8 hours. The audit process cannot differentiate
                                   between time that is unjustified and time that is not
                                   supported by documentation. The Total Variance Factor in
                                   the Postal Service’s WebEIS shows the difference between
                                   projected workhours for the workload identified in DOIS and
                                   the actual workhours carriers used. Headquarters
                                   management and the OIG agreed to 50 percent of the total
                                   WebEIS variance from January 1, 2005, to May 31, 2005, as
                                   unrecoverable costs, which amounts to $723,586.15




10
   Postal Service Handbook M-41, City Delivery Carrier Duties and Responsibilities, Section 131.41
(updated with Postal Bulletin revisions through April 2001).
11
   Management Instruction PO-610-2000-1, Piece Count Recording System, December 2000.
12
   DOIS Workload Status Reports, PS Forms 3996, and Route/Carrier Daily Performance Reports.
13
   We randomly selected 20 days at each of the six facilities to conduct “3996 audits” and completed
120 “3996 audits.”
14
   Postal Service Finance memorandum dated March 7, 2005, shows that the national average labor rate for
city letter carriers in FY 2005 was $38.93. The 59,207.90 hours multiplied by $38.93 equals $2,304,964.
15
   WebEIS shows the total variance between projected workhours for the workload identified in DOIS and
the actual workhours carriers used. The total variance for the 25 similarly sized delivery facilities is
$1,447,172.90 for January 1, 2005, through May 31, 2005.

                                                   7
City Letter Carrier Operations –                                                                    DR-AR-06-002
 Detroit District



 PS Form 3996,                     Carriers often did not submit PS Forms 3996 to request
 Carrier – Auxiliary               additional time for routes. Of the days we reviewed,
 Control                           2,032 of the 2,273 total unjustified hours (89 percent) were
                                   the result of carriers not submitting the forms. This occurred
                                   because delivery facility management did not emphasize the
                                   use of the form as a tool to help manage daily operations.
                                   Instead, supervisors verbally discussed workload issues with
                                   carriers.

                                   When carriers submitted PS Forms 3996, they did not
                                   always properly document their requests for additional time.
                                   For example, carriers listed reasons on Form 3996 for
                                   overtime, but did not list a corresponding amount of time. In
                                   addition, supervisors did not always approve or disapprove
                                   carriers’ requests.

                                   Postal Service policy states that the carrier must show the
                                   reason for requesting assistance on his/her route in detail on
                                   PS Form 3996.16 In addition, PS Form 3996 has a section
                                   for management to approve or disapprove carriers’ overtime
                                   requests.

                                   Delivery facilities incurred unjustified workhours because
                                   carriers did not submit PS Forms 3996, and when forms
                                   were submitted, carriers and supervisors did not complete
                                   them properly.

 Recommendations                   We recommend the manager, Detroit District:

                                       1.    Direct station managers and supervisors to enforce
                                             the policy for carriers to complete PS Form 3996,
                                             Carrier – Auxiliary Control, when workload or
                                             volume indicates the carrier will need additional time
                                             for the route, and require carriers to properly
                                             document their reasons for requesting additional
                                             time.

                                       2.    Instruct station managers and delivery facility
                                             supervisors to review PS Form 3996s, Carrier –
                                             Auxiliary Control, and take action to either approve
                                             or disapprove carrier requests.



16
  Postal Service Handbook M-41, City Delivery Carrier Duties and Responsibilities, Chapter 2, Section 28
(updated with Postal Bulletin revisions through April 2001).

                                                    8
City Letter Carrier Operations –                                                 DR-AR-06-002
 Detroit District



 Management’s                      Management agreed with our findings and
 Comments                          recommendations and has taken actions to ensure
                                   compliance.

 Evaluation of                     Management’s comments are responsive to our findings and
 Management’s                      recommendations. Management’s actions taken or planned
 Comments                          should correct the issues identified in the findings.




                                               9
City Letter Carrier Operations –                                                             DR-AR-06-002
 Detroit District




 Supervisors’ Use of               Supervisors and managers viewed the DOIS Workload
 Delivery Operations               Status Report in a timely manner to manage operations.
 Information System                Supervisors need to improve their viewing of two other
 Reports                           DOIS reports because they focused more on the Missed
                                   Scan Report than on other reports in reviewing carrier
                                   performance. The DOIS Quality Assessment, September 9,
                                   2002, states that supervisors must use DOIS to manage
                                   daily facility operations.

                                   Supervisors at some delivery facilities need to enhance their
                                   use of the Route/Carrier Daily Performance and MSP
                                   Overview Reports in a timely manner to manage their
                                   delivery operations. (See Table 1.)

                                                  Table 1. Supervisors’ DOIS Activity
                                                 January 1, 2005, through May 31, 2005
                                                            (125 Workdays)

                                                             Days                 Days
                                                          Workload           Route/Carrier     Days
                                                            Status                Daily        MSP
                                    xxxxxxxxxxxx          Report Not          Performance    Overview
                                    xxxxxxxxxxxx            Viewed             Report Not     Report
                                       Delivery             Before           Viewed Before      Not
                                      Facilities           8:30 a.m.            8:00 a.m.     Viewed
                                    xxxxx                                1             14           6
                                    xxxxxxxxx                            7            104          90
                                    xxxxxxxxxx                           7             89          81
                                    xxxxxxxxxxxx                         1              7           4
                                    xxxxxxxx                             3             25          72
                                    xxxxxxxxxx                           9             39           1

                                             TOTAL                  28                278         254
                                   Source: Postal Service DOIS Reports


                                   The Workload Status Report was viewed before 8:30 a.m. in
                                   all but 28 of 75017 instances (4 percent), an excellent
                                   record. The Route/Carrier Daily Performance Report was
                                   not viewed before 8:00 a.m. in 278 of 750 instances
                                   (37 percent), and the MSP Overview Report was not viewed
                                   daily in 254 of 750 instances (34 percent).




17
     xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

                                                   10
City Letter Carrier Operations –                                                       DR-AR-06-002
 Detroit District



                                   The DOIS Quality Assessment states that supervisors must
                                   use DOIS to manage daily facility operations and review
                                   reports in a timely manner. The Great Lakes Area MSP
                                   Standard Operating Procedure requires supervisors to view
                                   the MSP Overview Report daily and review, annotate, and
                                   document any noncompliance indicators.

                                   The district needs to improve viewing the Route/Carrier
                                   Daily Performance Report and the MSP Overview report at
                                   the appropriate time. This is a problem because
                                   supervisors focused more on the Missed Scan Report than
                                   other DOIS reports in reviewing carrier performance.

                                   Supervisors affect their ability to make effective decisions in
                                   matching workhours to workload when they do not review
                                   operational data such as mail volume, carrier performance,
                                   and street delivery activities in DOIS. Improving the
                                   reviewing of DOIS reports will help delivery supervisors and
                                   managers take timely corrective action to address carrier
                                   performance issues.

 Recommendations                   We recommend the manager, Detroit District:

                                      3.   Direct station managers and supervisors to improve
                                           their rate of viewing the Route/Carrier Daily
                                           Performance Report by 8:00 a.m. so they can
                                           monitor and correct carrier performance.

                                      4.   Direct station managers and supervisors to review
                                           the Managed Service Points Overview Report daily
                                           to help monitor carrier performance.

 Management’s                      Management agreed with the finding and recommendations
 Comments                          and has taken actions to ensure compliance.

 Evaluation of                     Management’s comments are responsive to our finding and
 Management’s                      recommendations. Management’s actions taken or planned
 Comments                          should correct the issues identified in the finding.




                                                11
City Letter Carrier Operations –                                                                    DR-AR-06-002
 Detroit District




 Managed Service                   Delivery facility managers did not consistently use MSP
 Points Base                       base information to effectively monitor carrier street
 Information                       performance. We reviewed the base MSP information for
                                   all routes at the xxxxxxxxxxxxxxx delivery facilities and
                                   identified 134 of 264 routes where office or street times had
                                   excessive interval times or were out of sequence.18

                                   Examples of out-of-sequence conditions included:

                                       •    Return to office time before the last delivery.

                                       •    Excessive return to office time.

                                       •    Two different streets with the exact same scan time.

                                   The out-of-sequence times occurred when supervisors did
                                   not update the route pivot plan after they had changed
                                   carriers’ starting times earlier in the year. The route pivot
                                   plan is a detailed description of the route that the city
                                   delivery carrier should follow while delivering mail on the
                                   street. The manager or supervisor must update the
                                   form and the pivot plan to reflect any route changes
                                   to ensure the correct placement of MSP scan points.
                                   In addition, the Great Lakes Area MSP Policy,
                                   September 2002, requires supervisors to retrieve the MSP
                                   Overview Report daily to review performance.

                                   Delivery managers and supervisors stated they did not
                                   always remember to update the pivot plans and base
                                   information, but would take corrective action.

 Recommendation                    We recommend the manager, Detroit District:

                                       5.    Reinforce the requirement for managers and
                                             supervisors to update base information when they
                                             make changes to routes.

 Management’s                      Management agreed with the finding and recommendation
 Comments                          and actions taken or planned should ensure compliance
                                   with MSP. District Operations Programs Support and the
                                   MSP coordinator will disseminate MSP scores by each
                                   office on a daily basis.

18
  Out-of-sequence conditions occur when the scheduled times for the route do not occur in chronological
order.

                                                   12
City Letter Carrier Operations –                                                  DR-AR-06-002
 Detroit District




 Evaluation of                     Management agreed with the finding and recommendations
 Management’s                      and has taken actions to ensure compliance.
 Comments                          Management’s actions taken or planned should correct the
                                   issues identified in the finding.




                                               13
City Letter Carrier Operations –                                                                   DR-AR-06-002
 Detroit District




 Unauthorized Time                 Supervisors and managers at the six delivery facilities did
                                   not always properly track and document letter carriers’
                                   unauthorized overtime. For example, two of the delivery
                                   facilities had no PS Form 1017-B log entries, and two other
                                   facilities had fewer than 10 entries. Supervisors said they
                                   attempted to speak with carriers about unauthorized
                                   overtime, but did not often track occurrences and fill out the
                                   PS Form 1017-B log.

                                   As shown in Table 2, 211 PS Form 1017-B entries were
                                   recorded for all 120 sampled days for the 5-month period
                                   January 1, 2005, through May 31, 2005. However, one of
                                   the six delivery facilities accounted for 187 of the total PS
                                   Form 1017-B log entries.

                                         Table 2. Summary of PS Form 1017-B Log Entries
                                                 for xxxxx Delivery Facilities, from
                                             January 1, 2005, through May 31, 200519



                                           xxxxxxxxxxxxxxxx                Total Number of
                                              xxxxxxxxxx                   PS Form 1017-B
                                               Facilities                      Entries
                                          xxxxxx                                     0
                                          xxxxxxxxx                                  0
                                          xxxxxxxxx                                 187
                                          xxxxxxxx                                   12
                                          xxxxxxxxxx                                 7
                                          xxxxxxxxx                                  5
                                          Overall                                   211
                                                Source: Postal Service Delivery Facility Records


                                   Supervisors said documenting unauthorized overtime was
                                   not a high priority. However, supervisors should have
                                   documented the discussion with the carrier regarding the
                                   reasons for unauthorized overtime in the remarks section of
                                   PS Form 1017-B.




19
     xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx


                                                 14
City Letter Carrier Operations –                                                        DR-AR-06-002
 Detroit District



                                   Handbook F-401, Supervisor’s Guide to Scheduling and
                                   Premium Pay, Chapter, 5, Section F, August 2000, states:

                                           . . . employees are responsible for adhering to
                                           their assigned work schedules. A variance
                                           from the assigned work schedule will result in
                                           unauthorized overtime. Supervisors must
                                           document these occurrences on PS
                                           Form 1017-B and take corrective action.

                                   Because supervisors did not document unauthorized
                                   overtime, they could not effectively consult with each other
                                   and correct carrier performance issues to assist in
                                   managing overtime hours.

 Recommendation                    We recommend the manager, Detroit District:

                                      6.     Reinforce the policy in Handbook F-401,
                                             Supervisor’s Guide to Scheduling and Premium
                                             Pay, to properly complete PS Form 1017-B,
                                             Unauthorized Overtime Record, to document
                                             unauthorized overtime and take corrective action.

 Management’s                      Management agreed with our finding and recommendation.
 Comments                          District Operations Support will conduct audits on every
                                   DOIS office in the Detroit District and monitor all
                                   deficiencies noted in this audit.

 Evaluation of                     Management’s comments and actions taken and planned
 Management’s                      are responsive to our recommendation. Management’s
 Comments                          actions taken or planned should correct the issues identified
                                   in the finding.




                                                  15
City Letter Carrier Operations –                                                                                                                                                             DR-AR-06-002
 Detroit District


               APPENDIX A. SUMMARY OF 120 “3996 AUDITS”




                                                                                                     Total Unjustified Time in Minutes
                                                                      Total Time Used Greater than




                                                                                                                                         Total Unjustified Percentage




                                                                                                                                                                                                    No PS Form 3996 but Route
                                                                                                                                                                        Total Routes Greater than




                                                                                                                                                                                                    Greater than 8 Hours
                                                                      8 Hours in Minutes
                        Delivery Facility




                                                        Day of Week
    Number




                                                                                                                                                                        8 Hours
        1    xxxxxx                            Date
                                            01/05/05   Wed                           4214             4214                               100                                                39                                  36
        2    xxxxxx                         01/11/05   Tues                          2609             2609                               100                                                37                                  33
        3    xxxxxx                         01/15/05    Sat                          1370             1370                               100                                                22                                  20
        4    xxxxxx                         01/25/05   Tues                          4803             4803                               100                                                43                                  35
        5    xxxxxx                         01/28/05    Fri                                 806                           806            100                                                22                                  19
        6    xxxxxx                         02/02/05   Wed                           2065             2065                               100                                                31                                  31
        7    xxxxxx                         02/04/05    Fri                          1671             1671                               100                                                17                                  16
        8    xxxxxx                         02/24/05   Thurs                         3323             3323                               100                                                38                                  36
        9    xxxxxx                         02/25/05    Fri                          2096             2096                               100                                                31                                  27
    10       xxxxxx                         03/01/05   Thurs                         2706             2706                               100                                                33                                  29
    11       xxxxxx                         03/07/05   Mon                           2245             2245                               100                                                31                                  29
    12       xxxxxx                         03/11/05    Fri                                 976                           976            100                                                23                                  22
    13       xxxxxx                         03/25/05    Fri                          1815             1815                               100                                                30                                  30
    14       xxxxxx                         03/31/05   Thurs                         1005             1005                               100                                                24                                  20
    15       xxxxxx                         04/01/05    Fri                          1446             1446                               100                                                29                                  25
    16       xxxxxx                         04/11/05   Mon                           3538             3538                               100                                                37                                  34
    17       xxxxxx                         04/20/05   Wed                                  781                           781            100                                                18                                  15
    18       xxxxxx                         04/22/05    Fri                          1154             1154                               100                                                15                                  10
    19       xxxxxx                         05/11/05   Wed                           1355             1355                               100                                                25                                  25
    20       xxxxxx                         05/17/05   Thurs                                971                           971            100                                                11                                  8
    21       xxxxxxxx                       01/03/05   Mon                           3668             3668                               100                                                42                                  42
    22       xxxxxxxx                       01/07/05    Fri                          4340             4340                               100                                                42                                  42
    23       xxxxxxxx                       01/10/05   Mon                           4073             4061                                                99                                40                                  37
    24       xxxxxxxx                       01/14/05    Fri                          1227             1213                                                99                                18                                  16
    25       xxxxxxxx                       01/21/05    Fri                          3484             3478                                                99                                35                                  32
    26       xxxxxxxx                       01/27/05   Thurs                         2868             2861                                                99                                40                                  35
    27       xxxxxxxx                       02/07/05   Tues                          3423             3408                                                99                                43                                  40
    28       xxxxxxxx                       02/09/05   Wed                           2696             2696                               100                                                35                                  34
    29       xxxxxxxx                       02/10/05   Thurs                         1843             1834                                                99                                32                                  31
    30       xxxxxxxx                       02/16/05   Wed                           3114             3114                               100                                                33                                  33



                                                           16
City Letter Carrier Operations –                                                                                                                                                                        DR-AR-06-002
 Detroit District




                                                                                                           Total Unjustified Time in Minutes
                                                                       Total Time Used Greater than




                                                                                                                                                    Total Unjustified Percentage




                                                                                                                                                                                                                   No PS Form 3996 but Route
                                                                                                                                                                                   Total Routes Greater than




                                                                                                                                                                                                                   Greater than 8 Hours
                                                                       8 Hours in Minutes
                         Delivery Facility




                                                         Day of Week
    Number




                                                                                                                                                                                   8 Hours
                                                Date
    31       xxxxxxxx                        02/28/05   Mon                           3428                  3403                                                     99                                38                                 37
    32       xxxxxxxx                        03/05/05    Sat                          2329                  2329                                    100                                                29                                      26
    33       xxxxxxxx                        03/17/05   Thurs                                952                                952                 100                                                22                                      19
    34       xxxxxxxx                        04/08/05    Fri                          2235                  2235                                    100                                                27                                      25
    35       xxxxxxxx                        04/21/05   Thurs                         1510                  1510                                    100                                                17                                      17
    36       xxxxxxxx                        05/06/05    Fri                          1551                  1551                                    100                                                24                                      23
    37       xxxxxxxx                        05/12/05   Thurs                         1544                  1544                                    100                                                19                                      17
    38       xxxxxxxx                        05/20/05    Fri                          2096                  2096                                    100                                                24                                      22
    39       xxxxxxxx                        05/24/05   Tue                                  494                                494                 100                                                17                                      17
    40       xxxxxxxx                        05/25/05   Wed                           1598                  1598                                    100                                                22                                      22
    41       xxxxxxxxx                       01/03/05   Mon                                  760                                760                 100                                                19                                      18
    42       xxxxxxxxx                       01/04/05   Tues                          1048                  1048                                    100                                                16                                      16
    43       xxxxxxxxx                       01/10/05   Mon                           2039                  2039                                    100                                                24                                      24
    44       xxxxxxxxx                       01/25/05   Tues                                 825                                805                                  98                                18                                      12
    45       xxxxxxxxx                       02/01/05   Tues                          1905                                      829                                  44                                22                                      7
    46       xxxxxxxxx                       02/24/05   Thurs                                759                                729                                  96                                16                                      12
    47       xxxxxxxxx                       03/05/05    Sat                                 851                                838                                  98                                10                                      4
    48       xxxxxxxxx                       03/11/05    Fri                                 498                                406                                  75                                10                                      5
    49       xxxxxxxxx                       03/18/05    Fri                                 685                                462                                  67                                10                                      5
    50       xxxxxxxxx                       03/25/05    Fri                                 337                                337                 100                                                        6                               5
    51       xxxxxxxxx                       03/28/05   Mon                           1448                  1092                                                     75                                18                                      11
    52       xxxxxxxxx                       03/29/05   Thurs                         2189                  1324                                                     60                                16                                      9
    53       xxxxxxxxx                       03/30/05   Wed                                  370                                341                                  92                                        6                               2
    54       xxxxxxxxx                       04/06/05   Wed                                  883                                676                                  77                                10                                      8
    55       xxxxxxxxx                       04/12/05   Thurs                         1948                  1418                                                     73                                17                                      7
    56       xxxxxxxxx                       04/21/05   Thurs                                819                                728                                  89                                10                                      7
    57       xxxxxxxxx                       04/25/05   Mon                                  625                                625                 100                                                10                                      9
    58       xxxxxxxxx                       04/28/05   Thurs                         1031                                      900                                  87                                16                                      12
    59       xxxxxxxxx                       04/30/05    Sat                                 292                                264                                  90                                        4                               2
    60       xxxxxxxxx                       05/26/05   Thurs                                         68                                       68   100                                                        2                               2
    61       xxxxxxxxxxxx                    01/03/05   Mon                                  328                                320                                  98                                        7                               6
    62       xxxxxxxxxxxx                    01/07/05    Fri                                 252                                252                 100                                                        7                               6


                                                            17
City Letter Carrier Operations –                                                                                                                                                                      DR-AR-06-002
 Detroit District




                                                                                                         Total Unjustified Time in Minutes
                                                                     Total Time Used Greater than




                                                                                                                                                  Total Unjustified Percentage




                                                                                                                                                                                                                 No PS Form 3996 but Route
                                                                                                                                                                                 Total Routes Greater than




                                                                                                                                                                                                                 Greater than 8 Hours
                                                                     8 Hours in Minutes
                       Delivery Facility




                                                       Day of Week
    Number




                                                                                                                                                                                 8 Hours
                                              Date
    63       xxxxxxxxxxxxx                 01/11/05   Tues                                 209                                209                 100                                                        6                               5
    64       xxxxxxxxxxxxx                 01/12/05   Wed                                  162                                162                 100                                                        5                               4
    65       xxxxxxxxxxxxx                 01/21/05    Fri                                 127                                127                 100                                                        5                               4
    66       xxxxxxxxxxxxx                 01/25/05   Tues                                 453                                453                 100                                                12                                      9
    67       xxxxxxxxxxxxx                 01/31/05   Mon                                  175                                175                 100                                                        4                               3
    68       xxxxxxxxxxxxx                 02/05/05   Thurs                                139                                125                                  90                                        4                               2
    69       xxxxxxxxxxxxx                 02/24/05   Thurs                                         82                                       82   100                                                        2                               1
    70       xxxxxxxxxxxxx                 03/08/05   Tues                                          85                                       85   100                                                        2                               1
    71       xxxxxxxxxxxxx                 03/10/05   Thurs                                171                                171                 100                                                        4                               4
    72       xxxxxxxxxxxxx                 03/11/05    Fri                                 336                                336                 100                                                        5                               5
    73       xxxxxxxxxxxxx                 03/12/05    Sat                                 305                                305                 100                                                        6                               3
    74       xxxxxxxxxxxxx                 03/22/05   Tues                                          60                                       60   100                                                        2                               0
    75       xxxxxxxxxxxxx                 04/02/05    Sat                                          35                                       35   100                                                        1                               0
    76       xxxxxxxxxxxxx                 04/05/05   Tues                                          25                                       25   100                                                        1                               1
    77       xxxxxxxxxxxxx                 04/08/05    Fri                                          90                                       90   100                                                        1                               1
    78       xxxxxxxxxxxxx                 05/18/05   Wed                                  112                                112                 100                                                        3                               2
    79       xxxxxxxxxxxxx                 05/24/05   Tues                                 232                                232                 100                                                        3                               1
    80       xxxxxxxxxxxxx                 05/27/05    Fri                                 164                                164                 100                                                        4                               3
    81       xxxxxxx                       01/04/05   Tues                                 682                                682                 100                                                        7                               7
    82       xxxxxxx                       01/06/05   Thurs                         1814                  1814                                    100                                                21                                      20
    83       xxxxxxx                       01/24/05   Mon                           2654                  2654                                    100                                                29                                      29
    84       xxxxxxx                       01/27/05   Thurs                         2466                  2466                                    100                                                23                                      22
    85       xxxxxxx                       02/08/05   Tues                                 853                                853                 100                                                13                                      12
    86       xxxxxxx                       02/19/05    Sat                                 837                                837                 100                                                        7                               7
    87       xxxxxxx                       02/24/05   Thurs                         1111                  1111                                    100                                                        9                               9
    88       xxxxxxx                       02/26/05    Sat                          1211                  1198                                                     99                                19                                      18
    89       xxxxxxx                       03/04/05    Fri                          1258                  1258                                    100                                                12                                      12
    90       xxxxxxx                       03/05/05    Sat                                 481                                481                 100                                                        9                               9
    91       xxxxxxx                       03/12/05    Sat                                 927                                927                 100                                                11                                      11
    92       xxxxxxx                       03/15/05   Tues                          1591                  1591                                    100                                                19                                      19
    93       xxxxxxx                       03/23/05   Wed                                  332                                332                 100                                                        6                               6
    94       xxxxxxx                       03/24/05   Thurs                                167                                167                 100                                                        4                               4


                                                          18
City Letter Carrier Operations –                                                                                                                                                                           DR-AR-06-002
 Detroit District




                                                                                                              Total Unjustified Time in Minutes
                                                                        Total Time Used Greater than




                                                                                                                                                       Total Unjustified Percentage




                                                                                                                                                                                                                      No PS Form 3996 but Route
                                                                                                                                                                                      Total Routes Greater than




                                                                                                                                                                                                                      Greater than 8 Hours
                                                                        8 Hours in Minutes
                         Delivery Facility




                                                         Day of Week
    Number




                                                                                                                                                                                      8 Hours
                                                Date
    95       xxxxxxx                         03/28/05   Mon                            1198                    1198                                    100                                                        7                               7
    96       xxxxxxx                         04/07/05   Thurs                                 497                                  497                 100                                                        6                               6
    97       xxxxxxx                         04/28/05   Thurs                          1004                    1004                                    100                                                16                                      15
    98       xxxxxxx                         05/03/05   Tues                           1235                    1235                                    100                                                        9                               9
    99       xxxxxxx                         05/10/05   Tues                                  920                                  920                 100                                                14                                      14
   100       xxxxxxx                         05/24/05   Tues                                  241                                  241                 100                                                        6                               6
   101       xxxxxxxxx                       01/10/05   Mon                                   915                                  915                 100                                                17                                      16
   102       xxxxxxxxx                       01/13/05   Thurs                                 152                                  152                 100                                                        6                               6
   103       xxxxxxxxx                       01/14/05    Fri                                  692                                  692                 100                                                13                                      13
   104       xxxxxxxxx                       01/26/05   Wed                                   825                                  793                                  96                                22                                      21
   105       xxxxxxxxx                       01/31/05   Mon                            1062                    1062                                    100                                                12                                      12
   106       xxxxxxxxx                       02/03/05   Thurs                                 434                                  434                 100                                                12                                      12
   107       xxxxxxxxx                       02/16/05   Wed                                   192                                  192                 100                                                12                                      12
   108       xxxxxxxxx                       02/26/05    Sat                                  329                                  329                 100                                                        5                               4
   109       xxxxxxxxx                       02/28/05   Mon                                   151                                  151                 100                                                        4                               4
   110       xxxxxxxxx                       03/03/05   Thurs                                 573                                  560                                  98                                17                                      16
   111       xxxxxxxxx                       03/24/05   Thurs                                 176                                  176                 100                                                        4                               4
   112       xxxxxxxxx                       04/01/05    Fri                                  251                                  251                 100                                                12                                      12
   113       xxxxxxxxx                       04/04/05   Mon                                            33                                         33   100                                                        4                               4
   114       xxxxxxxxx                       04/15/05    Fri                                  250                                  250                 100                                                        7                               6
   115       xxxxxxxxx                       04/19/05   Tues                                           41                                         41   100                                                        2                               2
   116       xxxxxxxxx                       04/27/05   Wed                                   172                                  172                 100                                                        8                               5
   117       xxxxxxxxx                       05/02/05   Mon                                            92                                         92   100                                                        5                               5
   118       xxxxxxxxx                       05/13/05    Fri                                           64                                         64   100                                                        7                               6
   119       xxxxxxxxx                       05/17/05   Tues                                           14                                         14   100                                                        1                               1
   120       xxxxxxxxx                       05/24/05   Tues                                           33                                         33   100                                                        2                               1
             TOTALS                                                    140,274                              136,415                                                                       1,918                                 1,709




                                                            19
   City Letter Carrier Operations –                                                         DR-AR-06-002
    Detroit District


                                           APPENDIX B

                       PROJECTION OF “3996 AUDIT” RESULTS
                             OVER 5-MONTH PERIOD


                                                                                        Projected
                                                                                        Hours Not
                                           95-Percent     95-Percent                   Justified by
                          Projection of    Confidence     Confidence                   Workload in
                           Unjustified       Interval       Interval                 5-Month Period
                           Time (Point       (Lower          (Upper                   (Jan. 1, 2005,
                          Estimate) in      Bound) in      Bound) in      Relative       through
   Delivery Facility         Minutes         Minutes        Minutes      Precision    May 31, 2005)
xxxxxxxxxxx                       98,056        71,479        124,633          27%             1,634

xxxxxxxxxxxxx                     22,000        15,427         28,573          30%               367


xxxxxxxxx                       302,406        238,618        366,194          21%             5,040


xxxxxxx                         255,931        187,815        324,048          27%             4,266

xxxxxxxxxx                        40,038        21,457         58,618          46%               667


xxxxxxxxxxxxx                   134,163         95,261        173,064          29%             2,236


xxxxxxxxxxxxxxxxxxx

                                                Overall
Detroit District               3,552,474       922,863       6,182,085                        59,208
25 Facilities




                                                  20
City Letter Carrier Operations –                                                   DR-AR-06-002
 Detroit District


              APPENDIX C. TECHNICAL DOCUMENTATION

Sampling

An objective of the audit was to quantify the amount of unjustified time in the
Detroit District in the Great Lakes Area. In support of this objective, the audit
team randomly employed a two-stage sample of carrier time, selecting delivery
units, and delivery days. The sample design allows statistical projection of the
total minutes of unjustified time, unjustified office time, unjustified street time, and
unexplained unjustified time.

Audit Universe

The team judgmentally selected the Detroit District, which had xx delivery units
with xxxxxxx carrier routes. The audit universe consisted of 125 working days
from January 1, 2005, through May 31, 2005.

Sample Design and Modifications

We chose a two-stage sample design, with simple random selection of delivery
units at the first stage and a simple random sample of delivery days at the
second stage. We examined all delivery routes on the days selected. We had
no information on variability between delivery units. To size the sample, we
considered each delivery unit and delivery day combination as a universe
element (a total of 2,064 unit days). We selected a desired confidence level of
95 percent and, for sample size calculation purposes, a desired relative precision
for a variable estimate of 20 percent. We considered coefficient of variation (CV)
values of 100 and 125 percent. With application of the finite population
correction, these CVs generated sample sizes of 95 to 145, respectively. We
used 20 delivery unit days, randomly selecting six delivery units at the first stage
and randomly selecting 20 delivery days at each of the units.

Results

The value assigned to each delivery unit day is the total number of unjustified
minutes in a particular category. Using the total time value as the variable, we
applied the equations for projecting a variable in a two-stage sample using the
equations from Chapter 9, Scheaffer, Mendenhall, and Ott, Elementary Survey
Sampling, © 1996. Appendix B gives the results for total unjustified time.




                                           21
City Letter Carrier Operations –                                                                     DR-AR-06-002
 Detroit District



                                           APPENDIX D

           OIG CALCULATION OF UNRECOVERABLE COSTS

The OIG identified $2,304,96420 in unjustified (unrecoverable) costs (see the
table below). We calculated the unjustified costs through a random sample
analysis of PS Forms 3996. The “3996 audit” process is an assessment of
individual route time greater than 8 hours. The audit process cannot differentiate
between time that is unjustified and time that is not supported by documentation.
The Total Variance Factor in the Postal Service’s WebEIS data system shows
the difference between projected workhours for the workload identified in DOIS
and the actual workhours used by the carriers. Postal Service Headquarters
management and the OIG agreed to 50 percent of the WebEIS variance from
January 1, 2005, through May 31, 2005, or $723,586,21 as the unrecoverable
costs.


                                      Workhours                 Labor Rate                   Cost
Unjustified workhours                    59,207.90                     $38.93               $2,304,964
projected by the OIG
from “3996 audits” for
January 1, 2005,
through May 31, 2005,
for 25 delivery facilities
with 30 to 55 routes
Workhours using Total                      37,173.72                        $38.93          $1,447,173
Variance Factor in
WebEIS for January 1,
2005, through May 31,
2005, for 25 delivery
facilities with 30 to
55 routes
Unrecoverable                              18,586.86                        $38.93            $723,586
workhours identified by
using 50 percent of
WebEIS variance




20
   Postal Service Finance memorandum dated March 7, 2005, shows the actual national average labor rate
for city letter carriers in FY 2005 as $38.93. The 59,207.90 hours multiplied by $38.93 equals $2,304,964.
21
   Postal Service Finance memorandum dated March 7, 2005, shows the actual national average labor rate
for city letter carriers in FY 2005 as $38.93. The 18,586.86 hours multiplied by $38.93 equals $723,586.

                                                    22
City Letter Carrier Operations –                                             DR-AR-06-002
 Detroit District


                                   APPENDIX E

                              PRIOR AUDIT COVERAGE

City Letter Carrier Operations – Chicago District (Report Number
DR-AR-05-019, September 29, 2005). The report outlined opportunities to
improve the management of city letter carrier operations in the Chicago District.
Delivery facility supervisors and managers did not adequately match workhours
with workload. We projected the sample results for a total of 78,248 unjustified
hours over the 5-month period from September 1, 2004, through January 31,
2005, that were not supported by volume or workload. We agreed with
headquarters delivery management to unrecoverable costs of $2,020,200. We
also noted that supervisors and managers did not always view DOIS reports in a
timely manner to manage operations, consistently use MSP to monitor city letter
carriers’ street time to correct negative trends, or properly document letter
carriers’ unauthorized overtime occurrences and take corrective action.

City Letter Carrier Operations – Santa Ana District (Report Number
DR-AR-05-013, August 8, 2005). The report outlined opportunities to improve
the management of city letter carrier operations in the Santa Ana District.
Delivery facility supervisors and managers did not adequately match workhours
with workload. We projected the sample results for a total of 83,864 unjustified
hours over the 5-month period from May 1 through September 30, 2004, that
were not supported by volume or workload. We agreed with headquarters and
Pacific Area delivery management to unrecoverable costs of $2,127,852. We
also noted that supervisors and managers did not always view DOIS reports in a
timely manner to manage operations, consistently use MSP to monitor city letter
carriers’ street time to correct negative trends, or properly document letter
carriers’ unauthorized overtime occurrences and take corrective action.

City Letter Carrier Operations – San Diego District (Report Number
DR-AR-05-014, August 8, 2005). The report outlined opportunities to improve
the management of city letter carrier operations in the San Diego District.
Delivery facility supervisors and managers did not adequately match workhours
with workload. We projected the sample results for a total of 53,835 unjustified
hours over the 5-month period from May 1 through September 30, 2004, that
were not supported by volume or workload. We agreed with headquarters and
Pacific Area delivery management to unrecoverable costs of $1,423,935. We
also noted that supervisors and managers did not always view DOIS reports in a
timely manner to manage operations, consistently use MSP to monitor city letter
carriers’ street time to correct negative trends, or properly document letter
carriers’ unauthorized overtime occurrences and take corrective action.




                                        23
City Letter Carrier Operations –                                          DR-AR-06-002
 Detroit District



City Letter Carrier Operations – Rio Grande District (Report Number
DR-AR-05-009, December 2, 2004). The report outlined opportunities to
improve the management of city letter carrier operations in the Rio Grande
District. Delivery facility supervisors and managers did not adequately match
workhours with workload. We projected that the three delivery facilities had
5,318 unjustified hours (at an estimated cost of $193,947) not supported by
volume or workload over the 5-month period from October 1, 2003, through
February 29, 2004. We reported 2,543 of the unjustified hours — or $92,762 —
as unrecoverable costs. We also noted that supervisors and managers did not
effectively use DOIS to manage daily operations, and delivery unit supervisors
and managers did not consistently perform street management or effectively use
MSP to monitor city letter carriers’ street time to correct negative trends.




                                      24
City Letter Carrier Operations –                     DR-AR-06-002
 Detroit District


                 APPENDIX F. MANAGEMENT’S COMMENTS




                                   25
City Letter Carrier Operations –        DR-AR-06-002
 Detroit District




                                   26
City Letter Carrier Operations –        DR-AR-06-002
 Detroit District




                                   27
City Letter Carrier Operations –        DR-AR-06-002
 Detroit District




                                   28
